WAIVER

SUPREME COURT OF THE UNITED STATES

 

Supreme Court Case No 20845
Donald J. Trump for President, Inc. v Kathy Boockvar, Secretary of Cmwlth of PA et al.
(Petitioner) (Respondent)

IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.

Please check the appropriate boxes:

 

 

 

Please enter my appearance as Counsel of Record for all respondents.

 

{X] There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

Luzerne County Board of Elections

 

I am a member of the Bar of the Supreme Court of the United States.

 

 

 

I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed @Bar member.

 

 
   

 

Date: January 15, 2021

(Type or print) Name Joseph M Cosgrove
Cf Mr. Ms. Mrs. Miss

 

 

 

 

 

 

 

 

Firm__Selingo Guagliardo LLC
Address 345 Market Street

 

City & State_Kingston, PA Zip 18704
Phone 570-287-2400 Email jcosgrove@getyourselfagoodlawyer.com

 

A COPY OF THIS FORM MUST BE SENT TO PETITIONER’S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

cc: John C Eastman, Esq.
